                DEFENSE LOGISTICS AGENCY
             WASTEWATER TREATMENT SYSTEMS

Report No. D-2001-087                     March 26, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
ADUSD(EQ)             Assistant Deputy Under Secretary of Defense (Environmental
                         Quality)
CWA                   Clean Water Act
DLA                   Defense Logistics Agency
MoM                   Measure of Merit
NPDES                 National Pollutant Discharge Elimination System
                        Office of the Inspector General, DoD
Report No. D-2001-087                                                     March 26, 2001
   (Project No. D2000CK-0216)

         Defense Logistics Agency Wastewater Treatment Systems

                                Executive Summary

Introduction. The audit is part of the overall audit, “DoD Wastewater Treatment
Systems,” (Project No. D2000CK-0216). The overall audit is being jointly conducted by
the Inspector General, DoD, and the Army, Navy, and Air Force audit agencies. The
Office of the Assistant Deputy Under Secretary of Defense (Environmental Quality)
requested the audit to determine whether the Services and the Defense Logistics Agency
were reporting the correct Clean Water Act information. The Clean Water Act requires
wastewater dischargers, to include Federal facilities, to have permits that establish
pollution limits, and specifies monitoring and reporting requirements. This report
discusses the Defense Logistics Agency Clean Water Act reporting. An overall report
will be issued to summarize the audit results of the Services and the Defense Logistics
Agency.

Objectives. The overall audit objective was to determine whether the Defense Logistics
Agency was accurately and consistently reporting the number of permits and permitted
systems covered by the Clean Water Act and the number of systems in compliance with
the Clean Water Act. In addition, we evaluated how well the Defense Logistics Agency
was managing its resources for wastewater treatment systems. We also reviewed the
management control program, as it related to the overall objective.

Results. The Defense Logistics Agency was consistently and accurately reporting the
numbers of wastewater treatment systems, permits, and permitted systems in compliance
and covered by the Clean Water Act. The Defense Logistics Agency reported for the first
half of FY 2000, that they had 36 Clean Water Act permits, 38 permitted systems and 35
permitted systems in compliance with their permit requirements. However, Defense
Logistics Agency components experienced difficulties in properly reporting and
categorizing their permits and systems to Defense Logistics Agency headquarters because
of confusion over the DoD Clean Water Act Measure of Merit definitions. Our concerns
with DoD Clean Water Act Measure of Merit definitions will be addressed in our overall
summary report. Additionally, the Defense Logistics Agency was adequately planning
for repairs, upgrades and replacement of their wastewater treatment systems. They
estimated in the first half of FY 2000, a total of six nonrecurring wastewater projects for
FYs 2000 and 2001, at an approximate cost of $3.7 million. The Defense Logistics
Agency management controls were effective in that we identified no material
management control weakness. See Appendix A for details on the management control
program.
Management Comments. We provided a draft of this report on February 9, 2001. No
written response was required, and none was received. Therefore, we are publishing this
report in final form.




                                           ii
Table of Contents

Executive Summary                                            i


Introduction
     Background                                              1
     Objectives                                              2
     Defense Logistics Agency Wastewater Treatment Systems   3

Appendixes
     A. Audit Process
         Scope and Methodology                               6
         Management Control Program Review                   7
         Prior Coverage                                      7
     B. Report Distribution                                  8
Background
    This audit is part of the overall audit, “DoD Wastewater Treatment Systems,”
    (Project No. D2000CK-0216). The overall audit is being jointly conducted by the
    Inspector General, DoD, and the Army, Navy, Air Force audit agencies. The
    Office of the Assistant Deputy Under Secretary of Defense (Environmental
    Quality) (ADUSD [EQ]) requested we perform this audit to determine whether
    the Services and Defense Logistics Agency (DLA) were consistently and
    accurately reporting the number of Clean Water Act (CWA) permits and
    permitted systems and the number of systems in compliance with the CWA. This
    report discusses DLA reporting for the CWA. An overall report will summarize
    the audit results of the Services and DLA.

    Clean Water Act. The CWA requires wastewater dischargers, including Federal
    facilities, to have permits that establish pollution limits, and specifies monitoring
    and reporting requirements. Primary authority for the implementation and
    enforcement of the CWA rests with the Environmental Protection Agency.
    National Pollutant Discharge Elimination System (NPDES) permits regulate
    household and industrial wastes that are collected in sewers and treated at
    municipal wastewater treatment plants. NPDES permits also regulate industrial
    point sources that discharge into other wastewater collection systems, or that
    discharge directly into receiving waters. NPDES permits are issued either by the
    Environmental Protection Agency or by a state having permitting authority from
    the Environmental Protection Agency.

    DoD Environmental Compliance. DoD Instruction 4715.6, “Environmental
    Compliance,” April 24, 1996, requires the Deputy Undersecretary of Defense
    (Environmental Security) to monitor DoD environmental compliance. DoD
    Instruction 4715.6 established a measure of merit (MoM) for measuring DoD
    compliance with its NPDES permits under the CWA. DoD compliance with the
    MoM is determined by the:

           • total number of NPDES wastewater permitted systems, and

           • number of systems meeting NPDES permit standards.

    In May 1998, the Deputy Under Secretary of Defense (Environmental Security)
    revised the MoM so that DoD would not only focus on maintaining compliance,
    but also look at pollution prevention alternatives as the means for achieving and
    maintaining compliance. The revised MoM to meet this goal was divided into
    two parts:

           • all DoD CWA permitted water pollution control systems and activities
             shall be in compliance with their permit requirements, and

           • increase CWA pollution prevention nonrecurring investments to
             15 percent of the total CWA nonrecurring investments (combined
             pollution prevention and compliance) by FY 2004.

    In order to monitor the military Services and DLA progress, ADUSD(EQ)
    requires DLA and the Services to semiannually report the number of CWA


                                          1
     permits, permitted systems, and permitted systems in compliance with the CWA.
     Additionally, ADUSD(EQ) requires them to report the total number of
     nonrecurring projects and associated costs that are required to achieve or
     maintain 100 percent compliance with the CWA standards. Components are to
     include pollution prevention projects that are cost-effective measures.

Objectives
     The overall audit objective was to determine whether DLA was accurately and
     consistently reporting the number of permits and permitted systems covered by
     the CWA and the number of systems in compliance with the CWA. In addition,
     we evaluated how well DLA was managing its resources for wastewater treatment
     systems. The management control program, as it related to the overall objective,
     was also reviewed. See Appendix A for a discussion of the audit scope and
     methodology and our review of the management control program.




                                        2
           Defense Logistics Agency Wastewater
           Treatment Systems
           DLA consistently and accurately reported the number of wastewater
           permits and permitted systems covered by the CWA and the number of
           systems in compliance with the CWA. As of March 31, 2000, DLA
           reported 36 CWA permits, 38 permitted systems, and 35 systems in
           compliance. Additionally, DLA was adequately planning for repairs,
           upgrades, and replacement of their wastewater treatment systems. As of
           March 31, 2000, DLA estimated a total of six nonrecurring wastewater
           projects through FY 2001 at an approximate cost of $3.7 million.

Reporting of Wastewater Clean Water Act Information
    ADUSD(EQ) Data Call. The ADUSD(EQ) issued semiannual data calls to the
    military Services and DLA for the Environmental Quality In Progress Review.
    These data calls required the Services and DLA to submit their total number of
    CWA permits, permitted systems, and permitted systems in compliance with the
    CWA. They were also required to report nonrecurring projects and costs
    necessary to ensure their wastewater systems maintained 100 percent compliance
    with the CWA. The ADUSD(EQ) provided a formatted table in the
    Environmental Quality In Progress Review data calls, that required the military
    Services and DLA to categorize their permits and permitted systems into one of
    six categories. The six categories were: domestic NPDES, industrial NPDES,
    stormwater NPDES, other permitted wastewater systems, discharge to publicly
    owned treatment works, and other clean water act activities. The “Definitions and
    Instructions for CWA Measure of Merit,” April 14, 1998 (CWA MoM
    definitions), specified the CWA permits and permitted systems to be included
    under each category, and it also specified what constituted a compliant system.

    DLA Reporting of Permits and Permitted Systems. DLA was consistently and
    accurately reporting the total number of wastewater permits, and permitted
    systems, and the number of systems in compliance with the CWA. The DLA,
    Environmental Quality and Safety Policy Office, Compliance Team (DLA,
    Environmental Team) provided their components with the ADUSD(EQ) data call
    request, that included the CWA MoM definitions, and the ADUSD(EQ) formatted
    table. Usually, the DLA component personnel responsible for managing the
    wastewater treatment systems completed the information request and submitted it
    to the DLA, Environmental Team. The DLA, Environmental Team, reviewed the
    components’ submissions and made changes to correct inaccurate reporting or
    categorizations by the DLA components prior to submitting the figures to
    ADUSD(EQ).

    DLA Component Reporting. DLA components experienced difficulties when
    information on permits and systems were reported and categorized to the DLA,
    Environmental Team. DLA personnel experienced these difficulties because the
    CWA MoM definitions were ambiguous and did not address the vast differences
    in the structure of the systems and the permit language that caused them to
    possibly report or categorize information improperly.



                                        3
       • One component had not reported, prior to FY 2000, permits and systems
         related to two-groundwater treatment systems that it operated. The
         component had not previously reported this information because the
         CWA MoM definitions did not address groundwater treatment systems.

       • A component reported six industrial NPDES permits and permitted
         systems; however, the DLA, Environmental Team determined that there
         were actually six stormwater NPDES permits and permitted systems.

       • A component reported one other permitted wastewater treatment system
         permit for two reporting periods when, in fact, it was a water usage
         agreement. The agreement was not a permit for wastewater system
         operation or for wastewater discharge and should not have been
         reported.

       • Another component reported three discharges to publicly owned
         treatment work permits and permitted systems for several reporting
         periods, when they did not have any permits. They had a water bill, not
         a permit specifying discharge limits.

       • A component operated a groundwater remediation system that
         discharged wastewater to a publicly owned treatment work. The
         component had a state permit to operate the system, and a local agency
         permit to discharge the treated wastewater to the publicly owned
         treatment work. Both permits had monitoring and reporting
         requirements. The component reported that they had one discharge to a
         publicly owned treatment work permit and permitted system. They did
         not report the state permit, because the state permit authorized them to
         operate the system and not discharge from the facility. Based on the
         CWA MoM definitions, we could not conclude whether the DLA
         component should report the state permit, and if they were to report it,
         how should they categorize it.

Reporting Noncompliant Systems. DLA components expressed confusion over
whether a system was compliant or noncompliant. Most DLA components
considered a system compliant until it received a notice of violation from the
regulating authority.

          CWA MoM Definition of a Noncompliant System. CWA MoM
defines a compliant system as one that does meet permit requirements 100 percent
of the time and/or does not have a new or open notice of violation. Officials from
the Office of the ADUSD(EQ) reiterated the guidance specified in the CWA
MoM definitions, that a system must meet 100 percent of its permit requirements.
However, they noted that judgment was necessary to determine whether a system
was compliant or noncompliant. For example, they stated that a system that
exceeded one of its daily requirements once during a month but was within its
monthly requirements probably should be reported as compliant.

          DLA System Compliance. Generally, the DLA wastewater treatment
systems were in compliance with permit requirements. We reviewed discharge
monitoring reports for 13 systems for a 6-month period and noted only 1 system
that routinely tested out of compliance. DLA had not reported this system as


                                    4
    noncompliant because no violation notice was received. Four systems had
    exceeded one or more daily permit requirement in the 6-month period, but DLA
    had not reported them as noncompliant, except the one system that received a
    notice of violation. In the FY 2000 first half Environmental Quality Program
    Review Data Call submission to ADUSD(EQ), DLA reported three systems as
    noncompliant, each system had received a notice of violation.

    The DLA, Environmental Team accurately and consistently reported the number
    of permits, permitted systems, and systems in compliance even though DLA
    components experienced difficulties in properly reporting and categorizing their
    permits and permitted systems, and determining system compliance. We believe
    that ADUSD(EQ) needs to further clarify the guidance concerning permits,
    permitted systems and noncompliant systems. Therefore, we are not making any
    recommendations to DLA.

Planning
    DLA installations were adequately planning for the maintenance, upgrade, and
    replacement of their wastewater systems, especially when regulators or outside
    parties suggested improvements. We found that DLA installations were
    adequately planning projects to replace sewer pipes, upgrade pump stations and
    flow meters, and repair systems to prevent groundwater infiltration. The DLA,
    Environmental Team used the information reported to them to ensure that any
    nonrecurring projects identified in a DLA component submission were also
    included in their budget request. DLA did not use the reported MoM data for any
    other management purposes.

Summary
    DLA was consistently and accurately reporting their CWA information to the
    ADUSD(EQ), in spite of the confusion over the categorization of permits and
    permitted systems and what constituted a noncompliant system. The ambiguous
    nature of the CWA MoM definitions caused DLA components to experience
    difficulties in properly reporting and categorizing their permits, permitted
    systems, and systems in compliance. We will address our concerns with the
    CWA MoM definitions in our overall summary report.




                                        5
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We coordinated the audit with the Office of the Assistant
    Deputy Under Secretary of Defense (Environmental Quality). We reviewed DoD
    policies and procedures related to reporting the number of CWA permits,
    permitted systems, compliant systems, and nonrecurring projects and associated
    costs. Additionally, we reviewed wastewater permits, discharge monitoring
    reports, permit regulator inspection reports, planned wastewater systems project
    information from 1991 through 2000. Additionally we reviewed DLA’s
    Environmental Quality Program Review submissions for the second half of
    FY 1998, first and second halves of FY 1999, and the first half of FY 2000. We
    judgmentally selected five DLA installations and organizations to review. Based
    on DLA’s first half of FY 2000 Environmental Quality Program Review, we
    reviewed 13 of 36 (36 percent) permits and 15 of 38 (40 percent) permitted
    systems. We reviewed the management control program as it applied to our audit
    objectives.

    We coordinated the audit with the Service audit agencies that are conducting their
    own audits of the Service’s wastewater treatment system permits, permitted
    systems, and resources management.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           Environment Functional Area. Objective: Achieve compliance with
           applicable Executive Orders and Federal, State, and inter-state, regional,
           and local statutory and regulatory environmental requirements.
           Goal: Number of new, open unresolved, and closed enforcement actions
           applicable environmental statutes. (ENV-2.1) Goal: Compliance with
           National Pollutant Discharge Elimination System (NPDES) permits under
           33 U.S.C. 1251-1387 for wastewater systems as determined by the total
           number of NPDES permitted wastewater systems. (ENV-2.3.1) Goal:
           Compliance with NPDES permits under 33 U.S.C. 1251-1387 for
           wastewater systems as determined by the number of wastewater systems
           meeting NPDES permit standards. (ENV-2.3.2)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure area.

    Use of Computer-Processed Data. We did not rely on computer-processed data.




                                        6
    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from June 2000 through January 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management controls
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD, as well as four state Environmental Offices
    (California, Pennsylvania, South Carolina and Virginia). Further details are
    available upon request.

Management Control Program Review
    DoD Directive 5010.38, "Management Control (MC) Program," August 26, 1996
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over DLA wastewater systems. Specifically,
    we reviewed management controls over obtaining permits for all required
    wastewater systems, maintaining the wastewater systems in accordance with their
    permits, and reporting the number of permits and systems to ADUSD(EQ).
    Because we did not identify a material weakness, we did not assess management’s
    self-evaluation.

    Adequacy of Management Controls. The DLA management controls we
    reviewed were adequate; we identified no material management control
    weaknesses.

Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                        7
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Environmental Security)
     Assistant Deputy Under Secretary of Defense (Environmental Quality)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          8
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                           9
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Joseph P. Doyle
Michael J. Tully
Michael E. Baker
Tracy L. Smelley
